No. 19-417
In the Supreme Court of the United
__________________

States

EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND ITS PATIENTS; ERNEST
MARSHALL, M.D., ON BEHALF OF HIMSELF AND HIS
PATIENTS; ASHLEE BERGIN, M.D., ON BEHALF OF
HERSELF AND HER PATIENTS; TANYA FRANKLIN, M.D.,
ON BEHALF OF HERSELF AND HER PATIENTS,
Petitioners,
v.
ADAM MEIER, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE KENTUCKY CABINET FOR HEALTH AND FAMILY
SERVICES,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

__________________

BRIEF IN OPPOSITION
__________________
M. STEPHEN PITT
S. CHAD MEREDITH
Counsel of Record
MATTHEW F. KUHN
OFFICE OF THE GOVERNOR
700 Capital Avenue
Suite 101
Frankfort, Kentucky 40601
(502) 564-2611
chad.meredith@ky.gov

CATHERINE YORK
CABINET FOR HEALTH &
FAMILY SERVICES
OFFICE OF LEGAL SERVICES
275 East Main Street, 5W-B
Frankfort, Kentucky 40621
(502) 564-7905

Counsel for Respondent
October 28, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the Free Speech Clause of the First
Amendment prohibits the Commonwealth of Kentucky
from regulating the practice of medicine by requiring a
medical professional, prior to performing a medical
procedure, to provide the patient with information that
is truthful, non-misleading, and relevant to the
procedure.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
A. The Challenged Statute . . . . . . . . . . . . . . . 1
B. The Policy Behind HB 2. . . . . . . . . . . . . . . 3
C. Decisions Below . . . . . . . . . . . . . . . . . . . . . 6
REASONS TO DENY CERTIORARI . . . . . . . . . . . 12
I.

THERE IS NO CIRCUIT CONFLICT OVER
THE QUESTION PRESENTED. . . . . . . . . . 12

II.

THERE IS NO RECURRING QUESTION
THAT THIS COURT NEEDS TO RESOLVE
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

III.

THE DECISION BELOW IS CORRECT . . . 19

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF AUTHORITIES
CASES
Eubanks v. Schmidt,
126 F. Supp. 2d 451 (W.D. Ky. 2000) . . . . . . . . . . 1
Gonzales v. Carhart,
550 U.S. 124 (2007). . . . . . . . . . . . . . . . . . . 4, 5, 10
National Institute of Family & Life Advocates v.
Becerra,
138 S. Ct. 2361 (2018). . . . . . . . . . . . . . . . . passim
Pickup v. Brown,
740 F.3d 1208 (9th Cir. 2013). . . . . . . . . . . . . . . 13
Planned Parenthood of Minnesota, North Dakota,
South Dakota v. Rounds,
530 F.3d 724 (8th Cir. 2008) (en banc). . . . . . 9, 12
Planned Parenthood of Southeastern Pennsylvania
v. Casey, 505 U.S. 833 (1992) . . . . . . . . . . . passim
Stuart v. Camnitz,
774 F.3d 238 (4th Cir. 2014). . . . . . . . . . . . passim
Texas Medical Providers Performing Abortion
Services v. Lakey,
667 F.3d 570 (5th Cir. 2012). . . . . . 5, 9, 12, 20, 25
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
Ky. Rev. Stat. § 311.725(1)(a) . . . . . . . . . . . . . . . . . . 1
Ky. Rev. Stat. § 311.725(1)(b) . . . . . . . . . . . . . . . . . . 1

iv
Ky. Rev. Stat. § 311.727. . . . . . . . . . . . . . . . . . . . . . . 2
Ky. Rev. Stat. § 311.727(2) . . . . . . . . . . . . . . . . . . . . 2
Ky. Rev. Stat. § 311.727(3) . . . . . . . . . . . . . . . . . . . . 3
Ky. Rev. Stat. § 311.727(5) . . . . . . . . . . . . . . . . . . . . 2

1
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Sixth Circuit is reported at 920 F.3d 421. The
opinion of the United States District Court for the
Western District of Kentucky is reported at 283
F. Supp. 3d 629.
STATEMENT OF THE CASE
A. The Challenged Statute
In 2017, the Kentucky General Assembly
determined that it would be prudent public policy to
augment Kentucky’s existing informed-consent
requirements for abortion providers. The then-existing
requirements were enacted in 1998, and they simply
required abortion providers to inform patients of:
(1) the nature and purpose of the abortion; (2) the
medical risks and alternatives to abortion; (3) the
probable gestational age of the child; (4) the material
risks of carrying the pregnancy to term; (5) the
availability of printed materials about the foregoing, as
well as information about obtaining public and private
assistance; and (6) the fact that the father of the child
is liable for child support even if he has offered to pay
for an abortion. Ky. Rev. Stat. § 311.725(1)(a)-(b).1 By
2017, however, the General Assembly determined that

1

The constitutionality of those requirements was challenged on
First Amendment grounds by at least one of the plaintiffs in the
present lawsuit. The United States District Court for the Western
District of Kentucky found the requirements to be constitutional,
and the plaintiffs did not appeal that decision. See Eubanks v.
Schmidt, 126 F. Supp. 2d 451 (W.D. Ky. 2000).

2
women deserve to be even better informed before
deciding whether to have an abortion.
To that end—and in light of two decades of
continuous improvement in ultrasound technology—
Kentucky legislators introduced House Bill 2 (“HB 2”)
in order to require that women seeking abortions also
be provided with an ultrasound image of their fetus,
and a medically-accurate description of that image, as
part of the informed-consent process. The bill passed
both houses of the General Assembly with
overwhelming bipartisan support in the very first week
of the 2017 legislative session, receiving “yea” votes
from more than 80 percent of legislators. The Governor
signed HB 2 two days later, and it became effective
immediately.
HB 2’s requirements, which are codified as Ky. Rev.
Stat. § 311.727, are simple and straightforward. They
do nothing more than require that women who are
considering an abortion be provided with information
that is truthful, non-misleading, and relevant to their
decision of whether to have an abortion. Specifically,
it requires a physician or qualified technician to do the
following before performing an abortion: (1) display an
ultrasound image of the child; (2) provide the woman
with a medical description of the ultrasound, including
the dimensions of the child and the presence of any
external members or internal organs; and
(3) auscultate the fetal heartbeat so that it can be
heard if audible. Id. § 311.727(2).
These requirements are not applicable in the case of
a medical emergency or necessity. Id. § 311.727(5).
And, in recognition of the fact that not all patients will

3
have the same need or desire for information, the law
strikes a balance by providing that the volume of the
fetal heartbeat can be reduced or turned off at the
request of the woman, and by also providing that
“nothing in this section shall be construed to prevent
the pregnant woman from averting her eyes from the
ultrasound images.” Id. § 311.727(3).
The Petitioners’ Statement of the Case claims that
HB 2 requires a physician to read patients a particular
“script,” [Pet. at 2], but that is completely false. HB 2
does not require anyone to follow a set script; rather,
the physician or qualified technician who is making the
required disclosures can use his or her own words to
meet HB 2’s requirements.
B. The Policy Behind HB 2
The rationale behind HB 2 is the common sense
notion that nothing can better inform a patient of the
nature and consequences of an abortion than actually
seeing an image of the fetus who will be aborted and
receiving a medically-accurate description of that
image. And there is abundant evidence in the record
demonstrating the real-world significance of providing
women with this information.
The Commonwealth of Kentucky presented the
district court with affidavits from four women who had
undergone abortions. [See Dkt. Nos. 32-3, 32-4, 32-5,
32-6]. These affidavits are powerful statements of the
despair and grief that a woman suffers when she
realizes that her decision to obtain an abortion was not
fully informed. [See id.]. Generally, the affiants state
that they did not understand the true nature of their

4
fetus before having an abortion, and they believed their
fetus to be an inanimate mass of tissue rather than a
living being that was assuming the human form. [See
Dkt. No. 32-4 at PageID # 409-10]. The affiants further
state that being shown an ultrasound image of their
fetus and receiving a description of that image would
have been helpful to them in determining whether to
have an abortion and would have helped them avoid
the mental anguish that they later suffered upon
realizing that they had made ill-informed decisions to
abort their children. [See Dkt. Nos. 32-3, 32-4, 32-5,
32-6, PageID # 406-08, 409-11, 412-14, 415-17].
These brave statements, which are essentially
ignored by the Petitioners, echo the considerations that
this Court articulated in Gonzales v. Carhart, 550 U.S.
124 (2007), when it explained the especially strong
interest that governments have in ensuring that
women have all available information related to their
pregnancy before making a decision about abortion. In
particular, this Court stated:
. . . Whether to have an abortion requires a
difficult and painful moral decision. While we
find no reliable data to measure the
phenomenon, it seems unexceptional to conclude
some women come to regret their choice to abort
the infant life they once created and sustained.
Severe depression and loss of esteem can follow.
In a decision so fraught with emotional
consequence some doctors may prefer not to
disclose precise details of the means that will be
used, confining themselves to the required
statement of risks the procedure entails. From

5
one standpoint this ought not to be surprising.
Any number of patients facing imminent
surgical procedures would prefer not to hear all
details, lest the usual anxiety preceding invasive
medical procedures become the more intense.
This is likely the case with the abortion
procedures here in issue.
It is, however, precisely this lack of
information concerning the way in which the
fetus will be killed that is of legitimate concern
to the State. The State has an interest in
ensuring so grave a choice is well informed. It is
self-evident that a mother who comes to regret
her choice to abort must struggle with grief more
anguished and sorrow more profound when she
learns, only after the event, what she once did
not know: that she allowed a doctor to pierce
the skull and vacuum the fast-developing brain
of her unborn child, a child assuming the human
form.
Id. at 159-60 (citations omitted).
HB 2 addresses these concerns by ensuring that
women have more information about not only the
abortion procedure itself, but also their fetus so that
they will not experience “grief more anguished and
sorrow more profound” if they later realize that they
made an uninformed decision. As the Fifth Circuit
held in Texas Medical Providers Performing Abortion
Services v. Lakey, “[d]enying [a woman] up to date
medical information is more of an abuse to her ability
to decide than providing the information.” 667 F.3d
570, 579 (5th Cir. 2012).

6
Of course, the Petitioners contend that they do not
actually deny women the information required by HB
2. They say that they offer women that information.2
Tellingly, however, there is no indication that they do
anything to dispel the mistaken beliefs of women
who—like the affiants—are under the impression that
their fetuses are simply masses of inanimate tissue
rather than living beings that are assuming the human
form. Thus, while the Petitioners claim to offer the
information to women, there is no evidence that the
Petitioners do anything to make sure that all women
are fully informed about the nature of their fetus or the
nature and consequences of the abortion procedure.
Given this reality, the Kentucky General Assembly
determined that the best way of ensuring that a woman
is fully informed about the nature and consequences of
an abortion prior to opting for one is to require that she
be shown an ultrasound image of her fetus and be
provided a description of the fetus in her doctor’s own
words. This is the considered judgment of the
overwhelming majority of Kentucky’s legislators—
those elected by Kentucky’s citizens to make policy
decisions for the Commonwealth.
C. Decisions Below
The Petitioners filed suit in the United States
District Court for the Western District of Kentucky,
2

The Petitioners ignore the fact that HB 2 applies not just to
themselves, but to anyone who will ever provide an abortion in
Kentucky. The fact that the Petitioners claim to offer to display
ultrasound images to their patients does not guarantee that other
abortion providers will do so, nor does it guarantee that the
Petitioners will continue doing so in the future.

7
claiming that HB 2 violates their First Amendment
rights by compelling them to engage in speech to which
they object. They sought preliminary and permanent
injunctive relief.
1. The district court held an evidentiary hearing on
the Petitioners’ motion for a preliminary injunction,
and the parties thereafter agreed for that hearing to be
treated as the trial on the merits. Several months
later, the district court declared HB 2 to be
unconstitutional and entered a permanent injunction
against its continued enforcement.3 See EMW Women’s
Surgical Ctr. v. Beshear, 283 F. Supp. 3d 629 (W.D. Ky.
2017). The district court reached that result by
rejecting the analytical framework applied to similar
laws by the Fifth and Eighth Circuits and adopting
instead the intermediate-scrutiny analysis that the
Fourth Circuit applied in Stuart v. Camnitz, 774 F.3d
238 (4th Cir. 2014). See EMW Women’s Surgical Ctr.,
283 F. Supp. 3d at 642. It adopted the Fourth Circuit’s
analysis because it agreed with that court’s conclusion
that ultrasound-disclosure requirements carry
constitutionally-suspect ideological implications. See
id. at 641-42.
2. The United States Court of Appeals for the Sixth
Circuit denied a motion to stay the injunction pending
appeal, but it ultimately reversed the district court’s
judgment based on this Court’s decision in National
Institute of Family & Life Advocates v. Becerra, 138

3

The district court had not previously granted preliminary
injunctive relief, meaning that HB 2 was in effect for months
before being enjoined.

8
S. Ct. 2361 (2018) (“NIFLA”). See EMW Women’s
Surgical Ctr. v. Beshear, 920 F.3d 421 (6th Cir. 2018).
With respect to its earlier denial of a stay, the Sixth
Circuit explained that “neither our court nor the
district court had the benefit of the Supreme Court’s
recent decision in [NIFLA].” See id. at 424.
In reversing the district court’s judgment, the Sixth
Circuit acknowledged that there had been a conflict
among circuits prior to NIFLA, but it held that NIFLA
“clarified that no heightened scrutiny should apply to
informed-consent statutes like the abortion-informedconsent statute at issue in Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S. 833
(1992).” EMW Women’s Surgical Ctr., 920 F.3d at 424
(citing NIFLA, 138 S. Ct. at 2373).
The Sixth Circuit went on to explain that “in
NIFLA, a majority of the Supreme Court adopted the
First Amendment analysis applied in Casey.” Id. at
428 (citing NIFLA, 138 S. Ct. at 2373-74). And, under
that analysis, a compelled informed-consent disclosure
is a constitutional regulation of the practice of medicine
so long as it is truthful, non-misleading, and relevant
to the patient’s decision whether to undergo the
particular procedure in question. Id. at 428-29 (citing
NIFLA, 138 S. Ct. at 2373; Casey, 505 U.S. at 882).
Thus, the Sixth Circuit concluded that “[b]ecause H.B.
2, like the statute in Casey, requires the disclosure of
truthful, non-misleading, and relevant information
about an abortion, we hold that it does not violate a
doctor’s right to free speech under the First
Amendment.” Id. at 424 (citing NIFLA, 138 S. Ct. at
2373; Casey, 505 U.S. at 882-84).

9
After concluding that HB 2 meets “the lower level of
scrutiny mandated by Casey and NIFLA,” id. at 432,
the Sixth Circuit observed that its decision was “in line
with two other circuits that have faced First
Amendment challenges to similar abortion-informedconsent statutes,” id. Specifically, the court observed
that the Fifth Circuit in Texas Medical Providers
Performing Abortion Services v. Lakey, 667 F.3d 570
(5th Cir. 2012), and the Eighth Circuit in Planned
Parenthood of Minnesota, North Dakota, South Dakota
v. Rounds, 530 F.3d 724, 726 (8th Cir. 2008) (en banc),
both held that informed-consent requirements are
constitutional when they merely mandate the
disclosure of truthful, non-misleading, and relevant
information. See id.
The Sixth Circuit also discussed the Fourth
Circuit’s outlier decision in Stuart, concluding that
Stuart’s reliance on the purported ideological
implications of ultrasound-disclosure requirements is
an illegitimate basis for invalidating them in light of
NIFLA. The Sixth Circuit rejected Stuart’s reasoning
“because it gave insufficient regard to the First
Amendment analysis in Casey that the Court clarified
and adopted as the majority view in NIFLA.” Id. at
435. More specifically, the Sixth Circuit found Stuart
to be inconsistent with NIFLA and held that “there is
no Supreme Court authority for looking to whether the
speech has ideological implications and applying a
‘sliding scale’ that may result in intermediate
scrutiny.” Id. at 436.
The Sixth Circuit then rejected the Petitioners’
remaining arguments—i.e., that HB 2 improperly

10
interferes with the doctor-patient relationship, and
that the law should be evaluated under heightened
scrutiny because it has a negative emotional effect on
patients. As to the former, the Sixth Circuit held that
“H.B. 2 does not interfere with the doctor-patient
relationship any more than other informed-consent
laws.” Id. And the court rejected out of hand the
Petitioners’ argument that the constitutionality of
informed-consent laws should be determined on the
basis of the preferred customs of professional groups
like the National Abortion Federation and the
American College of Obstetricians and Gynecologists.
See id. at 437. Citing Gonzales, the Sixth Circuit
observed that “[t]he law need not give abortion doctors
unfettered choice in the course of their medical
practice, nor should it elevate their status above other
physicians in the medical community.” Id. (quoting
Gonzales, 550 U.S. at 163). And the court further
observed that “[t]he principle that informed-consent
requirements may be created by law, as opposed to
merely medical profession custom, applies to all
medical procedures, including abortion.” Id. Thus, the
court held that the views of medical groups are
irrelevant in determining whether an informed-consent
statute violates the First Amendment. See id. at 439.
As to the Petitioners’ argument about the negative
emotional effects of HB 2, the Sixth Circuit held that
such considerations simply are not relevant to the First
Amendment analysis. The court noted that “discomfort
may be a byproduct of informed consent itself,” id. at
442 (citing Gonzales, 550 U.S. at 159), and observed
that Casey rejected the notion that discomfort to the

11
patient can render an informed-consent requirement
invalid, see id.
3. Judge Donald dissented. Significantly, she
acknowledged that “the controlling First Amendment
cases in this context are Casey and NIFLA.” Id. at 449
(Donald, J., dissenting). However, she believed that
the majority applied those cases incorrectly. In her
view, the dividing line between a valid informedconsent statute and an invalid compelled-speech
statute is not whether the law requires the disclosure
of information that is truthful, non-misleading, and
relevant to the decision to undergo a medical
procedure, but instead whether the requirements of the
law are “currently embodied in the customary standard
of medical care.” Id. at 450 (quoting Majority Opn. at
n.24).
Thus, under Judge Donald’s view, the
preferences of professional groups can supplant a
state’s sovereignty. Accordingly, she concluded that
HB 2 is unconstitutional because she found its
requirements to be inconsistent with the views of
certain medical groups. See id. at 455-56, 460-61.
4. The Petitioners moved for rehearing en banc,
which the Sixth Circuit denied on June 28, 2019.
Thereafter, they sought, and received, a stay of the
mandate pending this Court’s resolution of a petition
for a writ of certiorari.

12
REASONS TO DENY CERTIORARI
A writ of certiorari is inappropriate here. The Sixth
Circuit’s decision simply applied recent controlling
precedent from this Court—precedent that clarified the
law and, in doing so, eliminated a conflict among the
circuits. Because there is presently no conflict among
circuits, and because this Court spoke to the issue at
hand just two terms ago, there is no need for the Court
to use this case as a vehicle for addressing the issue yet
again. Moreover, the Sixth Circuit’s decision is correct.
I.

THERE IS NO CIRCUIT CONFLICT OVER
THE QUESTION PRESENTED.

The Petitioners’ sole basis for arguing that there is
a conflict among the circuits is the fact that the Sixth
Circuit’s decision and the Lakey and Rounds decisions
from the Fifth and Eighth Circuits respectively are
inconsistent with the Fourth Circuit’s 2014 decision in
Stuart. Their argument ignores one overriding point:
this Court’s 2018 decision in NIFLA.
There was undoubtedly a conflict among the circuits
prior to NIFLA, with the Fifth and Eighth Circuits
applying rational-basis review in First Amendment
challenges to medical-disclosure requirements like the
one at issue here, and the Fourth Circuit adhering to a
sliding-scale analysis that applies intermediate
scrutiny to such laws. But NIFLA clarified the law and
reset the playing field on this issue, meaning that there
is no longer a circuit conflict.
After NIFLA, it is clear that the Fourth Circuit’s
decision in Stuart is no longer good law. Stuart held
that regulations impacting the speech of professionals

13
must be evaluated on a continuum according to a
sliding-scale analysis. See Stuart, 774 F.3d at 248
(citing Pickup v. Brown, 740 F.3d 1208, 1227, 1229 (9th
Cir. 2013)).
Under that analysis, a regulation
requiring professionals to provide certain information
in the course of their profession is a regulation of both
speech and conduct, and therefore falls within the
middle of the continuum so as to be subject to
intermediate scrutiny. See id. But NIFLA directly
rejected that kind of sliding-scale analysis, holding that
there is no special doctrine governing the speech of
professionals. See NIFLA, 138 S. Ct. at 2372. In fact,
NIFLA repudiated the Ninth Circuit’s decision in
Pickup, see id. at 2371-72, which was the foundation on
which the Fourth Circuit erected its sliding-scale,
intermediate-scrutiny analysis in Stuart, see Stuart,
774 F.3d at 248 (citing Pickup, 740 F.3d at 1227, 1229).
In rejecting the sliding-scale analysis applied by the
Fourth Circuit, NIFLA clarified that content-based
regulations of professionals’ speech are subject to strict
scrutiny except in two instances: (1) the regulation of
professionals’ commercial speech; and (2) the
regulation of professional conduct that incidentally
burdens speech. See NIFLA, 138 S. Ct. at 2372-73.
The second exception is most relevant here. And, with
respect to that exception, there are only two options
when reviewing a statute that regulates professionals:
(1) it is a regulation of speech; or (2) it is a regulation
of conduct. There is no room under NIFLA’s holding
for the Fourth Circuit’s sliding-scale analysis that
applies intermediate-scrutiny to some laws on the
ground that they regulate both speech and conduct.
Instead, NIFLA clarified that a law either regulates

14
professional conduct with only incidental burdens on
speech—and therefore is not subject to any kind of
heightened scrutiny—or else it is a content-based
regulation of speech that is subject to strict scrutiny.
This is now the law—and it is precisely the law that
the Sixth Circuit applied below. More importantly,
NIFLA is a controlling precedent of this Court, and
therefore eliminates any previously existing circuit
conflict on this point. This should be the end of the
discussion because there plainly cannot still be a circuit
conflict when there is controlling authority from this
Court that was issued after the circuit conflict arose.
The only way that one can identify an existing
circuit conflict is by ignoring the fact that this Court
issued controlling authority in NIFLA. But not even
the dissenting opinion below attempted to do that. In
fact, the dissenting opinion acknowledged that NIFLA
is a controlling authority. See EMW Women’s Surgical
Ctr., 920 F.3d at 449 (Donald, J., dissenting). The
dissenting opinion contended that the majority had
misapplied NIFLA, but it did not assert that the
majority had come down on the wrong side of a circuit
conflict. Why not? Because the dissenting judge
obviously recognized that there was no longer a circuit
conflict in the wake of NIFLA.
Even the Petitioners themselves seem to recognize
this point. Indeed, in the section of the Petition
devoted to discussing the purported circuit conflict,
their primary argument is not that the dispute in this
case turns on the resolution of the supposed conflict,
but that “[t]he dispute here turns on the proper
interpretation of a plurality’s First Amendment

15
decision in Planned Parenthood of Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992), recently
reaffirmed and adopted by the Court in National
Institute of Family & Life Advocates v. Becerra, 138
S. Ct. 2361 (2018).” [Pet. at 12]. And the ensuing
discussion is focused on the Petitioners’ belief that the
Sixth Circuit simply got the wrong answer in its
application of NIFLA.
Thus, if it accomplishes
anything, the Petitioners’ argument just demonstrates
that there is now controlling precedent from this Court
rather than a circuit conflict.
Nevertheless, the Petitioners attempt to shoe-horn
a circuit conflict into this case by pointing to NIFLA’s
citation of Casey. NIFLA identified the informedconsent law at issue in Casey as a prime example of a
law that regulates professional conduct rather than
speech. See NIFLA, 138 S. Ct. at 2372-73. According
to the Petitioners, this means that the key to
determining whether a statute is a permissible
regulation of professional conduct rather than an
unconstitutional regulation of speech is to determine
whether the statute is similar in nature to the statute
in Casey. And, according to the Petitioners, there is a
circuit conflict on this issue because the Fifth and Sixth
Circuits have found that ultrasound-disclosure statutes
are of the same nature as the Casey statute—and
therefore constitutional—while the Fourth Circuit has
reached the opposite conclusion with respect to a
virtually identical statute. Once again, however, the
Petitioners’ argument ignores the impact of NIFLA.
The Fourth Circuit distinguished North Carolina’s
ultrasound-disclosure law from the law upheld in Casey

16
because it found that the disclosures required by North
Carolina’s law had “ideological implications.” Stuart,
774 F.3d at 246. But NIFLA belies that distinction,
which was illogical to begin with.
NIFLA addressed a California statute that required
pro-life crisis pregnancy centers to disseminate
information about obtaining free or low-cost abortions.
See NIFLA, 138 S. Ct. at 2368-69. If the ultrasound
disclosure requirement in Stuart carried “ideological
implications,” then the statute at issue in NIFLA
certainly did as well. And, yet, this Court did not rely
on any purported “ideological implications” of the
California statute in distinguishing it from the law that
was upheld in Casey. Instead, this Court distinguished
the California statute solely on the basis that it was not
tied to a medical procedure. See id. at 2373. In other
words, the statute in NIFLA was distinguishable from
the statute in Casey because the former “applie[d] to all
interactions between a covered facility and its clients,
regardless of whether a medical procedure is ever
sought, offered, or performed.” Id. By choosing
this—as opposed to any supposed ideological
implications of the law—as the point of distinction from
Casey, NIFLA plainly adopted a very different analysis
from the one the Fourth Circuit applied in Stuart.
NIFLA therefore overrode the pre-existing circuit
conflict and set forth the analysis to be used going
forward—which is precisely the analysis that the Sixth
Circuit applied here. This state of affairs is anything
but a circuit conflict.

17
II.

THERE IS NO RECURRING QUESTION
THAT THIS COURT NEEDS TO RESOLVE

The Commonwealth of Kentucky agrees that the
question presented is an important one. In fact, its
importance is precisely why this Court spoke directly
to the question just two years ago in NIFLA. Contrary
to the Petitioners’ argument, however, there are no
recurring issues that necessitate this Court’s
consideration of the same question for a second time in
three terms.
Other than the present case, the Petitioners have
not identified any post-NIFLA Court of Appeals’
decisions addressing the question at hand. And, in
fact, there are none. Moreover, if such cases arise,
there is no reason to believe that the Courts of Appeals
cannot handle them appropriately by applying NIFLA,
just as the Sixth Circuit did.
The Petitioners point out that the Sixth Circuit’s
decision might encourage other states to pass laws
similar to HB 2, but that can always be said of any
decision upholding the constitutionality of a statute.
This is not a legitimate basis for granting a writ of
certiorari.
The Petitioners also complain that the Sixth
Circuit’s opinion will pave the way for graphic
informed-consent requirements, like forcing physicians
to show cardiac patients a recording of a chest saw
being used in coronary bypass surgery, or requiring
physicians to show pregnant women a video of
abdominal surgery in order to discourage cesarean-

18
section delivery.4 But these are policy questions, not
questions of constitutional law. Under NIFLA, it is
unquestionably true that states can require physicians
to provide patients with information that is truthful,
non-misleading, and relevant to the decision to undergo
a particular medical procedure.
Whether a state
should require patients to receive all truthful, nonmisleading, and relevant images, videos, and writings
about a particular procedure—including graphic
disclosures like those mentioned by the Petitioners—is
a policy question that should be left to the political
processes of the state legislatures, not the federal
courts.
The essence of the Petitioners’ argument is that
they are displeased that several states have passed
laws like HB 2, and they fear more states might pass
similar laws in the wake of the Sixth Circuit’s
application of NIFLA. In their view, this presents a
recurring question that needs to be resolved. But it
does not. There is no recurring confusion that this
Court needs to clear up, and there is no indication that
the circuits need further guidance from this Court in
order to apply NIFLA in a coherent manner. Instead,
the Petitioners are simply asking this Court to
4

It is not clear that requiring a pregnant patient to watch a video
of abdominal surgery in general—rather than specifically a
cesarean section—would fall within the category of disclosures that
are truthful, non-misleading, and relevant to the medical
procedure at issue. There is no way to know from the record in
this case whether cesarean section procedures are so similar to all
other abdominal surgeries that a video of some randomly selected
abdominal surgery would be relevant to a patient’s decision to have
a cesarean section.

19
reconsider part of NIFLA in the hope that they can
obtain an outcome that they find more pleasing. But
this is not why writs of certiorari exist. A desire to relitigate an issue in the hope of getting a different result
does not demonstrate the existence of the kind of
important and recurring question that warrants this
Court’s attention.
III.

THE DECISION BELOW IS CORRECT

The decision below is not only correct, but is
affirmatively compelled by NIFLA. The Petitioners
contend that the Sixth Circuit’s interpretation of
NIFLA turns that decision on its head. Nothing could
be further from the truth. The Sixth Circuit correctly
interpreted and applied NIFLA. It is the Petitioners
who seek to turn that opinion upside down.
As explained above, NIFLA acknowledged the
general rule that content-based regulations of speech
are presumptively unconstitutional. NIFLA, 138 S. Ct.
at 2371. However, it also reiterated two longstanding
exceptions to this rule. First, the Court noted that
content-based regulations are not presumptively
unconstitutional when they “require professionals to
disclose factual, noncontroversial information in their
‘commercial speech.’” Id. at 2372. Second, the Court
held that “States may regulate professional conduct,
even though that conduct incidentally involves speech.”
Id. The Court identified informed-consent laws as a
prototypical example of the type of regulations that fall
under this second exception, see id. at 2373, and the
Sixth Circuit correctly relied on this exception in
upholding HB 2, see EMW, 920 F.3d at 424, 428-29,
446.

20
More specifically, NIFLA pointed to the informedconsent statute at issue in Casey as the prime example
of a valid informed-consent statute. See NIFLA, 138
S. Ct. at 2372-73. Thus, NIFLA held that a disclosure
requirement is a valid informed-consent law if it
possesses the same material attributes as the statute
in Casey. And what attributes are those? There are
three. In Casey, the plurality opinion noted that the
informed-consent statute at issue was constitutionally
distinguishable from other disclosure requirements
because it merely required the disclosure of
information that was (1) truthful, (2) non-misleading,
and (3) relevant to the proposed abortion procedure.
See Casey, 505 U.S. at 882.
And, after thus
characterizing the disclosure requirements, Casey
summarily rejected the plaintiff physicians’ First
Amendment claims. See id. at 884.
The Sixth Circuit correctly applied this analysis in
determining that HB 2 falls within NIFLA’s exception
for informed-consent statutes.
The disclosures
required by HB 2 “are the epitome of truthful, nonmisleading information.” Lakey, 667 F.3d at 577-78.
And they are clearly relevant to a woman’s decision to
have an abortion. Moreover, they are identical in
nature to the disclosures required in Casey. As the
Fifth Circuit held in Lakey, disclosure requirements
like those in HB 2 are “not different in kind, although
more graphic and scientifically up-to-date, than the
disclosures discussed in Casey—probable gestational
age of the fetus and printed material showing a baby’s
general prenatal development stages.” Id. at 578.
Given these circumstances, it is abundantly clear that

21
the Sixth Circuit correctly held that HB 2 falls within
NIFLA’s informed-consent exception.
The Petitioners do not contest the constitutionality
of informed-consent laws generally. Instead, they
argue that HB 2 is not an informed-consent law. In
advancing this argument, they do not offer much in the
way of a cogent test for determining when a disclosure
requirement qualifies as an informed-consent
requirement and when it does not. They complain
repeatedly that HB 2 is not consistent with
“traditional” informed consent—whatever that is. But
NIFLA did not limit the informed-consent exception to
only those laws that fall within some “traditional”
conception of informed consent. In fact, NIFLA said
nothing at all about “traditional” informed consent.
And for good reason: If the exception were limited to
“traditional” informed consent, the statute in Casey
would not have been found constitutional. After all,
even the Fourth Circuit’s Stuart decision acknowledged
that the statute in Casey differed from “traditional”
informed consent. See Stuart, 774 F.3d at 253
(observing that the statute in Casey was a
“modification” of traditional informed consent). The
line of constitutionality is not—and never has
been—drawn according to anyone’s conception of
whatever constitutes “traditional” informed consent.
It appears that what the Petitioners are really
arguing is that a disclosure requirement cannot be
considered a valid informed-consent requirement
unless it is consistent with the informed-consent
preferences of special interest groups like the National
Abortion Federation and the American College of

22
Obstetricians and Gynecologists. In other words, when
the Petitioners talk about “traditional” informed
consent, what they mean is that the preferences of
medical associations are the only legitimate factors in
determining informed-consent requirements. Thus, the
Petitioners believe that states cannot adopt informedconsent requirements that conflict with the views of
such groups. The Petitioners would have this Court
hold that the views of such groups should supplant the
policy preferences of state legislatures. But that is
obviously wrong.
At its heart, the Petitioners’ argument is a policy
argument, not a legal argument.
That is, the
Petitioners believe that an informed-consent
requirement should not be enacted over the objections
of their favored medical organizations. However, they
present no legal authority for the proposition that
states cannot—as a matter of constitutional law—enact
such laws over the objections of medical associations
and special interest groups. And no such authority
exists. It simply is not the case that professional
organizations have the authority to determine the
constitutionality of state laws. As this Court held in
Gonzales, “[t]he law need not give abortion doctors
unfettered choice in the course of their medical
practice, nor should it elevate their status above other
physicians in the medical community.” Gonzales, 550
U.S. at 163.
State sovereignty is no small matter. Indeed, it is
one of the foundations of our federal system of
government. The Petitioners’ position, if adopted,
would allow the preferences of special-interest groups

23
to supplant the sovereignty of the states. This is
unthinkable. The Constitution does not prohibit states
from regulating the practice of professions in a way
that is displeasing to professional associations. More
specifically, NIFLA makes clear that state legislatures
have the authority to regulate informed-consent
requirements. If medical groups dislike the manner in
which their profession is being regulated, the answer is
to lobby the state legislature to change the law, not
lobby a federal court to constitutionalize the groups’
preferences.
Of course, this is not to say that a state can insulate
a disclosure requirement from First Amendment
scrutiny simply by labeling it as an informed-consent
requirement. For example, a state cannot—under the
guise of informed consent—require physicians to tell
their patients that one particular political party
supports lower tax rates. Indeed, there must be a line
drawn between legitimate informed-consent statutes
and illegitimate compelled speech. Tellingly, the
Petitioners do not offer any principled manner of
determining where to draw that line other than to
suggest that it should be drawn wherever their
preferred special-interest groups would like.
Fortunately, this Court’s decision in NIFLA identified
precisely where to draw the line—i.e., valid informedconsent statutes are those that require the disclosure
of information that is truthful, non-misleading, and
relevant to the proposed medical procedure.
The Petitioners also contend that HB 2’s
requirements cannot be considered part of informed
consent because patients can choose to reject the

24
information by looking away and not listening. But
that argument proves too much. It is always true that
patients can look away and ignore informed-consent
disclosures.
And, in a similar vein, it is irrelevant that the
Petitioners claim to have patients who have rejected
the information they have been given pursuant to HB
2. The Petitioners’ evidence on this point is merely
anecdotal, and it is rebutted by other evidence in the
record showing that there are women who have had
abortions who wish they had received such information
prior to undergoing the procedure. [See Dkt. Nos. 32-3,
32-4, 32-5, 32-6]. Moreover, the fact that some
individuals might not want the information is not
constitutionally significant. It is no doubt true that
some individuals simply want their doctors to make
decisions for them and will reject all information
provided by their doctors, even the so-called
“traditional” informed consent that the Petitioners
favor. Thus, if disclosure requirements can be found
unconstitutional based on some patients’ rejection of
the information, then it is doubtful that any informedconsent laws can be constitutional.
The Petitioners further contend that HB 2 is
different from the statute in Casey—and therefore
cannot be considered an informed-consent
statute—because the Casey statute merely required
physicians to offer to provide certain information to the
patient while HB 2 actually requires physicians to
provide certain information. This is wrong for two
reasons. First, it is an incorrect characterization of the
statute in Casey. That statute required a number of

25
physician disclosures, some of which merely called for
the physician to offer to provide information, and
others that actually required the physician to provide
the information. See Casey, 505 U.S. at 881. Thus, the
requirements in HB 2 are not altogether different from
the requirements in Casey. See Lakey, 667 F.3d at 578
(holding that the requirements in an informed-consent
statute almost identical to HB 2 were “not different in
kind” than the disclosures in Casey).
Second, the Petitioners’ point is irrelevant. Even if
the statute in Casey had simply required physicians to
offer information to patients, as opposed to
affirmatively providing information, that would make
no difference in the constitutional analysis. The
distinction between offering to provide information and
actually providing information is a distinction that only
matters to the receiver of the information. From the
standpoint of the physician who is required to make the
disclosure, there is no constitutional distinction
between being required to provide the information and
being required to offer to provide the information. In
either instance, the physician is being compelled to say
something that he or she might desire not to say, and
otherwise might not say. Thus, it makes no sense to
suggest—as the Petitioners do—that one is somehow
more intrusive on First Amendment interests than the
other.
Finally, the Petitioners contend that HB 2 somehow
amounts to a viewpoint-based speech regulation. This
is a puzzling argument. The disclosures required by
HB 2 are purely factual. Because they are factual, they
do not express a viewpoint. Factual information can be

26
used to support a particular viewpoint, but factual
information itself does not convey a viewpoint. To say
otherwise is to distort the meaning of the word
“viewpoint” beyond recognition. Moreover, nothing in
HB 2 requires medical providers to express any
particular viewpoint, nor does it prohibit them from
expressing the viewpoint of their choosing alongside
the required factual disclosures. In other words,
medical providers are not limited to simply providing
the disclosures required by HB 2; they can accompany
those disclosures with whatever viewpoints or
commentary they desire. And, finally, they are allowed
to put the necessary disclosures in their own terms.
There is no state-provided “script” as the Petitioners
claim.
To equate the factual disclosures required by HB 2
with a viewpoint-based speech regulation is not only
demonstrably incorrect, but is also a frightening
proposition. If courts can equate truthful, factual
statements with a “viewpoint,” then dizzying
consequences will follow. More specifically, if courts
can erase the dividing line between facts and
viewpoints, then they will be able to pick and choose
which facts are “viewpoints” and which viewpoints are
“facts.” That sounds more like George Orwell’s 1984
than it does American constitutional law. Surely no
one wants to live in a world where that is possible.
One last point bears mentioning about the factual
nature of the HB 2 disclosures. In NIFLA, the
dissenting justices found the factual nature of
mandatory disclosures to be constitutionally
significant. In fact, the dissent stated that “a doctor’s

27
First Amendment interest in not providing factual
information to patients is the same: minimal, because
his professional speech is protected precisely because
of its informational value to patients. There is no
reason to subject such laws to heightened scrutiny.”
NIFLA, 138 S. Ct. at 2387 (Breyer, J., dissenting).
Thus, the four dissenting justices in NIFLA would
unquestionably have found HB 2 constitutional on the
ground that it requires the disclosure of factual
information. The NIFLA majority would have agreed
to the extent that the information is non-misleading
and relevant to a medical procedure—which the HB 2
disclosures are. Thus, under the views of all nine
justices in NIFLA, HB 2 is constitutional.
The bottom line here is that NIFLA sets the
standard for evaluating medical-disclosure
requirements, and it does so by referring to Casey.
NIFLA therefore compels the conclusion that disclosure
requirements are constitutional when they share the
same material attributes as the disclosure statute at
issue in Casey—i.e., when they require the disclosure
of truthful, non-misleading, and relevant information.
The Sixth Circuit correctly adhered to this rule, and its
adherence to this Court’s precedent clearly is not a
reason to grant a writ of certiorari.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.

28
Respectfully submitted,
M. STEPHEN PITT
CATHERINE YORK
S. CHAD MEREDITH
CABINET FOR HEALTH &
Counsel of Record
FAMILY SERVICES
MATTHEW F. KUHN
OFFICE OF LEGAL SERVICES
OFFICE OF THE GOVERNOR 275 East Main Street, 5W-B
700 Capital Avenue
Frankfort, Kentucky 40621
Suite 101
(502) 564-7905
Frankfort, Kentucky 40601
(502) 564-2611
chad.meredith@ky.gov
Counsel for Respondent
October 28, 2019

